CERTIFICATE OF SERVICE
I, the undersigned, hereby certifies that on the 19th day of March 2021, a true
and correct copy of the above and foregoing Petition for Writ of Certiorari was furnished
by the United States Mail to:
JUDITH A. AMOROSA, ESQ.
Assistant United States Attorney
6 15 Chestnut Street
Philadelphia, PA 19106
Phone: 215-861-8869
Email: Judith.amorosa@usdoi.gov

/■dJ

TucA&a,
Kevin L. Tucker
3794 1st St SE
Washington DC 20032
(864)506-1925
philosopherking2017@gmail.com

12 | Petition for Writ of Certiorari

jL~

